Oversight Review               March 31, 2008


       Report on Quality Control Review
           of Noblis, Incorporated
            FY 2006 Single Audit

          Report No. D-2008-6-004
  Additional Copies

  To obtain additional copies of the final report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.mil/audit/reports or contact
  the Office of the Assistant Inspector General for Audit Policy and Oversight at
  (703) 604-8760 or fax (703) 604-9808.

  Suggestions for Future Reviews

  To suggest ideas for or to request future reviews, contact the Office of the Assistant
  Inspector General for Audit Policy and Oversight at (703) 604-8760
  (DSN 664-8760) or fax (703) 604-9808. Ideas and requests can also be mailed to:

                                      OAIG-APO
                    Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 1017)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline(a>dodig.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

GAS           Government Auditing Standards
OMB           Office of Management and Budget
                                    INSPECTOR GENERAL
                                   DEPARTMENT OF DEFENSE
                                    400 ARMY NAVY DRIVE
                               ARLINGTON, VIRGINIA 22202-4704




Audit Committee
Noblis, Incorporated

Chief Financial Officer
Noblis, Incorporated

Audit Partner
Grant Thornton, LLP

SUBJECT: Report on Quality Control Review of Noblis, Incorporated FY 2006 Single Audit
         (Report No. D-2008-6-004)

       We are providing this report for your infonnation and use. As the cognizant Federal
agency for Noblis, Incorporated, we perfonned a review ofthe Grant Thornton, LLP single audit
and supporting work papers for the Fiscal Year ended October 1, 2006, to detennine whether the
audit was conducted in accordance with Government Auditing Standards (GAS) and the auditing
and reporting requirements of Office of Management and Budget (OMB) Circular A-133,
"Audits of States, Local Governments, and Non-Profit Organizations," (OMB Circular A-133).
Appendix A contains additional background, scope and methodology for the review, and
Appendix B lists the compliance requirements applicable to the FY 2006 single audit.

Background. Noblis, Inc. (fonnerly Mitretek Systems, Inc.) is a nonprofit organization that
perfonns research and development and engineering services of a scientific nature, primarily for
Federal agencies and state and local governments. Noblis was incorporated on December 11,
1995 under the laws of the State of Delaware and commenced business on January 29, 1996.
Noblis, Inc. expended $114.9 million in Federal awards for the fiscal year ended October 1,2006
under one Federal program, the Research and Development Cluster. Of the $114.9 million,
$23.4 million was expended for Department of Defense programs.

Review Results. Grant Thornton generally met GAS and OMB Circular A-133 requirements
for the FY 2006 single audit of Noblis Inc. However, we identified a deficiency in the review of
the Special Tests and Provisions compliance requirement. The auditors identified key personnel
as the special provision applicable to Noblis contracts. Although the auditors documented
compliance testing for this requirement, they did not document an understanding of internal
control over compliance or identify and test internal controls as required by OMB Circular
A-133. The audit manager provided our office with a supplemental written explanation which
demonstrated their understanding of internal control over compliance with the key personnel
requirement, identified key internal controls, and described perfonned verification procedures.
We were able to verify the verification procedures in other single audit working
papers. OMB Circular A-l33 requires the auditor to obtain and document an understanding of
internal control over compliance requirements sufficient to plan the audit to support a low assessed
level of control risk. The auditor is then required to identify key internal controls and plan and
perform tests of those controls in order to plan and perfonn compliance testing sufficient to support
the opinion on Federal programs.


Recommendation, Management Comments, and
IG DoD Response
Recommendation. We recommend that the Audit Partner, Grant Thornton, enhance
work paper documentation for future single audits. In addition, we request Grant
Thornton provide the Inspector General of the Department of Defense with work paper
documentation from the FY 2008 audit that demonstrates corrective action has been taken
to address the lack of documentation for the Special Tests and Provision compliance
requirement.

Grant Thornton's Comments. Grant Thornton concurred with our recommendation and
provided documentation from the FY 2007 single audit as evidence of corrective actions taken.
Management comments are included in its entirety at the end oftms report.

DIG DoD Response. We reviewed the FY 2007 audit documentation and conclude that the
corrective actions taken by Grant Thornton are responsive to our recommendation.

Other Matters of Interest. We also identified the following issues that should be addressed for
future single audits.

       Federal Program Audit Documentation. Grant Thornton needs to enhance the
documentation for the review of Cash Management, Procurement, Suspension and Debarment,
and Reporting in future audits. We had to obtain additional documentation and verbal
explanations from the audit manager in order to conclude that there was sufficient evidence to
support the audit opinion on these compliance requirements.

Government Auditing Standards require that sufficient detail be included in the audit
documentation to provide an experienced auditor who has had no previous connection with the
audit to ascertain from the documentation the evidence that supports the auditors' significant
judgments and conclusions. Audit documentation should be appropriately detailed to provide a
clear understanding of its purpose and source and should be appropriately organized to provide a
clear link to the findings, conclusions, and recommendations.

        Audit Coordination. Grant Thornton should coordinate with the Defense Contract Audit
Agency when planning future single audits. During the period covered by the FY 2006 single
audit, the Defense Contract Audit Agency issued 10 reports and/or memorandums on floor
checks, incurred costs, contract audit closing statement vouchers, forward pricing and
provisional billing rates, and cost accounting standards.




                                                  2
Although no findings were reported that impacted the FY 2006 single audit, coordination of
future single audits would help to achieve a more efficient and effective audit.

        We appreciate the courtesies extended to the audit staff. For additional information on
this report, please contact Ms. Janet Stem at (703) 604-8750 (DSN 664-8750) or Ms. Felicia
Fuller at (703) 604-9641 (DSN 664-9641). See Appendix C for the report distribution.



                                             /:A~_/        IP   /JAft'/?
                                             ~:;;~.-Davis
                                             Acting Assistant Inspector General
                                              for Audit Policy and Oversight




                                                3
     pendix A.. Quality Control Review Process

Background, Scope and Methodology
The Single Audit Act, Public Law 98-502, as amended, was enacted to improve the financial
management of State and Local Governments and nonprofit organizations by establishing one
uniform set of auditing and reporting requirements for all Federal award recipients required to
obtain a single audit. OMB Circular A-133 establishes policies that guide implementation of the
Single Audit Act and provides an administrative foundation for uniform audit requirements of
non-Federal entities administering Federal awards. Entities that expend at least $500,000 are
subject to the Single Audit Act and the audit requirements in OMB Circular A-133 and therefore
must have an mmual single or program-specific audit perfornled under Governmental Auditing
Standards and submit a complete reporting package to the Federal Audit Clearinghouse.

We reviewed the Grant Thornton audit of Noblis, Inc. for FY 2006 mld the resulting reporting
package that was submitted to the Federal Audit Clearinghouse dated June 25, 2007, using the
1999 edition ofthe "Unifonn Quality Control Guide for the A-133 Audits" (the Guide). The
Guide applies to any single audit that is subject to the requirements ofOMB Circular A-133 and
is the approved President's Council on Integrity and Efficiency checklist used for perfonning the
quality control reviews. We performed the review from September 2007 through February 2008.
The review focused on the following qualitative aspects of the single audit:

             •     Qualification of Auditors,

             49    Independence,

             49    Due Professional Care,

             49    Plamung and Supervision,

             •    Internal Control and Compliance testing,

             49    Schedule of Expenditures of Federal Awards, and

             •     Data Collection Form.

Prior Quality Control Reviews
Since 2003, we have issued one quality control review report on OMB Circular A-133 single
audits performed by Grant Thornton, LLP. In that report, issued in February 2003
(Report No. D-2003-6-004), we reported that the audit did not meet the requirements of OMB
Circular A-B3 and GAS that related to the audit of Federal programs because the FY 2001
single audit was not adequately plmmed, executed, and documented. Copies of IG DoD
unrestricted reports can be accessed over the Internet at http://www.dodig.osd.mil/audits/reports.




                                                4
Appendix B.. Compliance Requirements


       OMB Circular A-133 Compliance           Applicable   Not Applicable
              Requirements

 Activities Allowed/Unallowed                      X

Allowable Costs/Cost Principles                    X

 Cash Management                                   X

Davis-Bacon Act                                                   X

Eligibility                                                       X

Equipment and Real Property Management                            X

Matching, Level of Effort, Earmarking                             X

Period of Availability of Federal Funds            X

Procurement, Suspension, and Debarment             X

Program Income                                                    X

Real Property Acquisition and Relocation                          X
Assistance
Reporting                                          X

 Subrecipient Monitoring                           X

 Special Tests and Provisions                      X




                                           5
Appendix C. Report Distribution
Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Air Force Audit Agency

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of Navy

Other Federal Agencies
Office of the Inspector General, Department of Health and Human Services
Office ofthe Inspector General, Department of Justice
Office of the Inspector General, Department of Transportation
Office ofthe Inspector General, Enviromnental Protection Agency
Office of the Inspector General, National Aeronautics and Space Administration
Office ofthe Inspector General, National Science Foundation

Non-Government Organizations
Board of Trustees, Noblis, Incorporated
Chief Financial Officer, Noblis, Incorporated
Partner, Grant Thornton, LLP

Congressional Committees and Subcommittees, Chairman and
Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, COlmnittee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Amled Services


                                                6
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
   Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
   Committee on Oversight and Government Reform




                                          7
Grant Thornton, LLP Comments


                   GrantThornton



       March 14, 2008
                                                                                                     Audit· Tax .. AwisOlY
                                                                                                    Gl1lntThornton LLP
                                                                                                    2 Hopkils Plaza Su~e 700
       Ms. Carolyn R. Davis                                                                         8ahnor~ MD 21201·29:lJ
       Acting Assistant Inspector General for Audit Policy and Oversight                             T410.6$.4COO
       400 Army Navy Drive                                                                           F410.837.0587
                                                                                                     WWN.GranIThomlon,rom
       Arlington, VA 22202-4704


       Dear Ms. Davis:

       Grant Thornton LLP is providing responses to the def.ciency and other comments noted in the letter we
       received from you dated February 28, 2008 with the subject ''Report on Review of FY 2006 Audit of
       Noblis, Inc."

       Deficienq

       Your letter noted a deficiency in the review of the Special Tests and Provisions compliance requirements,
       As noted by you, we identified key personnel as a special provision applicable to certain of Noblis'
       contracts and performed compliance testing relative to this compliance requirement, however, we did not
       document an understanding of internal controls over this specific compliance requirement or identify and
       test the related internal controls as they relate to Special Tests and Provisions as required by OMB Circular
       A-133. While our audit work papers did not contain documentation of our understanding of the internal
       controls related to Special Tests and Provisions, we had previously discussed these controls with Noblis
       management and were able to provide this information to the Inspector General auditor upon her request.

       Your letter recommended that we address this deficiency in the FY 2008 single audit. We have, however,
       addressed it in the FY 2007 single audit since the FY 2007 single audit was not yet completed when we
       were made aware of this matter. We have attached work papers labeled 1-4 as evidence of addressing the
       deficiency. Work papers 1 "Activities-Level Systems Documentation" and 2 ''Who Performs Report" are
       documentation of our understanding of the system of internal controls surrounding the Special Tests and
                                                                         H
       Provisions compliance requirement. Workpaper 3 HKey Controls documents the controls we identifled as
       key controls to be tested. Work paper 4 "A-133 Special Tests & Provisions - Key Personnel" documents
       our testing of the internal controls and compliance with Special Tests and Provisions. We believe the
       deficiency was remediated in the FY 2007 audit.

       Other Matters of Interest

       We appreciate the items you noted in the Other Matters of Interest section and will consider these in
       future audits.

       Sincerely,




       James H. Stanker
       Partner


       GnriThocrtOfllLP
       us. merriler firm af G~t ThIIlr.ton Jn1~matN;n~lltd




                                                             9
